GR-40-99-002
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 

Office of Justice Programs, Bureau of Justice Assistance
Grant to the Charlotte-Mecklenburg, 
North Carolina, Police Department
Grant No. 94-DL-CX-0004
 
GR-40-99-002
 
October 1998
 
 

EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of a grant
awarded by the U.S. Department of Justice, Office of Justice Programs, Bureau of Justice
Assistance, to the Charlotte-Mecklenburg, North Carolina, Police Department (CMPD). The
CMPD received a $1,799,478 grant to hire or rehire 27 sworn officers under the Police
Hiring Supplement program. The purpose of the grant was to enhance community policing
efforts.

In brief, the CMPD violated some of the grant conditions. Specifically, the CMPD:



Claimed $112,442 in fringe benefits which were not authorized by the Office of Justice
      Programs.




Claimed $723,690 in salaries and fringe benefits which were not supported by time
      sheets.




Supplanted $686,576 in local funds with federal funds.


These items are discussed in the Findings and Recommendations section of the report.
Our scope and methodology appear in Appendix II.
#####